KEMBA CREDIT UNION, INC.
P. O. BOX 14090
CINCINNATI, OH 45250
(800) 825-3622
FAX (513) 762-1619

CREDIT CARD AGREEMENT AND
FEDERAL DISCLOSURE STATEMENT
THIS IS YOUR CREDIT CARD AGREEMENT AND IT INCLUDES NECESSARY FEDERAL TRUTH-INLENDING DISCLOSURE STATEMENTS, VISA PLATINUM AGREEMENTS, AND ANY SPECIAL
INSTRUCTIONS REGARDING THE USE OF YOUR VISA PLATINUM CREDIT CARD AND/OR OTHER
ACCOUNT ACCESS DEVICE. PLEASE BE CERTAIN TO READ THIS AGREEMENT CAREFULLY AND
NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR.

Interest Rate and Interest Charges
Annual Percentage Rate
(APR) For Purchases

_______% Introductory APR for ______ months.
After that, Your APR will be _______%.

Annual Percentage Rate
(APR) For Balance Transfers

_______% Introductory APR for ______ months.
After that, Your APR will be _______%.

Annual Percentage Rate
(APR) For Cash Advances

_______% Introductory APR for ______ months.
After that, Your APR will be _______%.

Paying Interest

We will not charge You interest on purchases if You pay Your entire balance owed each
month within 25 days of Your statement closing date. We will begin charging interest on
cash advances and balance transfers on the transaction date.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a Credit Card, visit
the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Transaction Fees




Foreign Transaction
Balance Transfer
Cash Advance

1.00% of each transaction in U.S. dollars.
2.00% of each transfer ($2.00 minimum - $50.00 maximum).
2.00% of each advance ($2.00 minimum - $50.00 maximum).

Penalty Fees



Returned Payment
Late Payment

Up to $25.00
Up to $25.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See Your
Account Agreement for details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in Your Account
Agreement.

In this Agreement, the reference to "We," "Us," "Our," and "Credit Union" mean KEMBA CREDIT UNION, INC. The words "You" and "Your" mean each person accepting this
Agreement. If this is a joint account, read singular pronouns in the plural. The words "Card" and "Credit Card" mean any VISA Platinum Credit Card issued to You by Us and
any duplicates or renewals We may issue. "Convenience Checks" mean the special Account access devices that We may provide for Your use from time to time.

Type of Credit Card

VISA Platinum

Copyright Oak Tree Business Systems, Inc., 2016 - 2017. All Rights Reserved.

Current
Daily Periodic
Rate

Current
Annual Percentage
Rate

__________%

__________%

Page 1 of 3

OTBS 016CC VP-INTRO FRB_WEB KEMB (1/17)
Rev. (6/16)

You understand the following terms constitute the Agreement:

Charge and any payment that accelerates the reduction of Your unpaid balance will
decrease Your Finance Charges.

PROMISE TO PAY. Your Account may be accessible through a variety of means
which could include advance request forms, vouchers, checks, charge slips, Credit
Cards, Convenience Checks, and the like. Regardless of the access means, You
promise to pay Us all amounts charged to Your Account by You or by any user who
has access to Your Account, with actual, apparent, or implied authority for use of Your
Account, including Finance Charges and other fees or charges described herein.
JOINT ACCOUNTS. Each Borrower will be responsible, jointly and severally, for the
repayment of amounts owed. You understand that any Card which is requested and
approved, will be mailed only to the primary Borrower at the address that We have on
file for You. We may refuse to follow any instructions which run counter to this provision.
OWNERSHIP. All access devices remain Our property and may be cancelled by Us
at any time without notice. You agree to surrender any such access device and to
discontinue its use immediately upon Our request.
USE OF YOUR CARD. You may use Your Card to buy goods and services in any place
that it is honored and to get cash advances from Us or another financial institution. If You
are issued a cash advance draft, it will be imprinted with Your Card and You will receive
a copy of the draft. You agree not to use Your Card for illegal transactions including, but
not limited to, advances made for the purpose of gambling and/or wagering where such
practices are in violation of applicable state and/or federal law.
ISSUANCE OF PERSONAL IDENTIFICATION NUMBER. We will issue You a
Personal Identification Number (PIN) for use with Your Card. This PIN is confidential
and should not be disclosed to anyone. You may use Your PIN and Your Card to
access Your Account and all sums advanced will be added to Your Account balance.
In the event a use of Your PIN constitutes an Electronic Fund Transfer, the terms and
conditions of Your Electronic Fund Transfer Agreement may affect Your rights.
CREDIT LIMITS. You will be notified of Your specific Credit Limit for transactions made
under Your Account. Unless You are in default, Your Credit Limit will be self-replenishing
as You make payments on Your Account. You will keep Your unpaid balance within Your
Credit Limit, and You will pay any amount over Your Credit Limit on Our demand whether
or not We authorize the advance which caused You to exceed Your Credit Limit. Even if
Your unpaid balance is less than Your Credit Limit, You will have no credit available
during any time that any aspect of Your Account is in default.
FINANCE CHARGES. In the case of any transactions on Your Account, the balances
subject to the periodic Finance Charge are the average daily transactions balances
outstanding during the month (including new transactions). To get the average daily
balance, We take the beginning balance of Your Account each day, add any new
purchases, balance transfers, cash advances, insurance premiums, debit
adjustments, or other charges and subtract any payments, credits, and unpaid
Finance Charges or Late Charges. This gives Us the daily balance. Then, We add up
all the daily balances for the billing cycle and divide them by the number of days in
the billing cycle. The Finance Charge for a billing cycle is computed by multiplying the
average daily balance subject to a Finance Charge by the Daily Periodic Rate times
the number of days in the billing cycle.
You can avoid Finance Charges on purchases by paying the full amount of the entire
balance owed each month within 25 days of Your statement closing date. Otherwise,
the new balance of purchases, and subsequent purchases from the date they are
posted to Your Account, will be subject to a Finance Charge. Cash advances and
balance transfers are always subject to a Finance Charge from the date they are
posted to Your Account.
Purchase, balance transfer, and cash advance transactions will accrue finance
charges at a discounted introductory Daily Periodic Rate of ____________%
(corresponding to an ANNUAL PERCENTAGE RATE of ____________%) for the
_____ month period immediately following the date You establish such Card. Upon
the expiration of the introductory rate period, the Daily Periodic Rate applicable to the
entire balance of purchases and balance transfers will immediately increase to the
non-introductory rate described elsewhere in this Agreement.
MINIMUM MONTHLY PAYMENT. Though You need only pay the Minimum Monthly
Payments, You understand that You have the right to repay Your Account or make
larger payments at any time without penalty. You will only be charged periodic Finance
Charges to the date You repay Your entire Account balance. Any partial payment or
prepayment of Your Account will not delay Your next scheduled payment. All
payments to Us must be in lawful money of the United States.
Payments will be applied in the following order: (a) any Fees and Charges owing; (b)
any Finance Charges due; (c) the balance for cash advances; (d) the balance for
balance transfers; and then to (e) the balance for purchases.
Any unpaid portion of any Finance Charges and Late Charges will be paid by
subsequent payments and will not be added to the principal. You understand that any
payment that delays the repayment of Your unpaid balance will increase Your Finance
Copyright Oak Tree Business Systems, Inc., 2016 - 2017. All Rights Reserved.

Minimum Monthly Payments for advances on Your Account will be an amount equal
to 2.00% of Your balance at the end of each billing cycle, subject to the lesser of
$10.00 or Your Account balance, plus any portion of the Minimum Payments shown
on prior statement(s) which remains unpaid, plus any amount that exceeds Your
approved Credit Limit
CONSENSUAL LIEN ON SHARES. As permitted by law, You grant and consent
to a lien on Your shares or other deposit accounts with Us (other than those
deposits established under a governmental-approved tax deferral plan such
as an IRA or Keogh account) and any dividends due or to become due to You
from Us to the extent You owe on any unpaid Credit Card balance.
OTHER SECURITY. Collateral (other than household goods or any dwelling) given as
security under this Agreement or for any other loan You may have with Us will secure
all amounts You owe Us now and in the future if that status is reflected in the "Truthin-Lending Disclosure" in any particular Agreement evidencing such debt.
PERIODIC STATEMENT. On a regular basis, You will receive a statement showing
all transactions on Your Account including amounts paid and borrowed since Your last
statement. We will mail You a statement each billing cycle in which there is a debit or
credit balance or when a Finance Charge is imposed. We need not send You a
statement if We feel Your Account is uncollectible or if We have started collection
proceedings against You because You defaulted. Each statement is deemed to be a
correct statement of account unless You establish a billing error pursuant to the
Federal Truth-In-Lending Act.
OUR RESPONSIBILITIES TO HONOR CONVENIENCE CHECKS. We are under no
obligation to honor Your Convenience Checks if: (1) by paying a Convenience Check,
You would exceed Your Credit Limit; (2) Your Cards or Convenience Checks have
been reported lost or stolen; (3) Your Account has been cancelled or has expired; and
(4) a Convenience Check is used for payment on this or any other loan Account with
Us. If a postdated Convenience Check is paid and, as a result, any other Convenience
Check is returned unpaid, We are not responsible for any resulting loss or liability.
TRANSACTION SLIPS. Your periodic statement will identify the merchant, electronic
terminal, or financial institution at which transactions were made, but sales, cash
advances, credit, or other slips will not be returned with the statement. You will retain
the copy of such slips furnished at the time of the transaction in order to verify Your
monthly statement.
CREDITS. If a merchant who honors Your Card gives You credit for returns or
adjustments, the merchant will do so by sending Us a slip which will be posted to Your
Account. If Your credits and payments exceed what You owe Us, We will hold and
apply this credit against future purchases and cash advances, or if it is $1.00 or more,
refund it on Your written request or automatically deposit it to Your share account after
6 months.
LATE CHARGE. If Your payment is not received within 55 days of the Statement
Closing Date of the statement for which that payment is due, You will be charged the
lesser of: (a) the amount of the minimum payment due; or (b) $25.00.
OTHER FEES AND CHARGES. You will be charged the following fees and charges
associated with the use of Your Credit Card: (a) the lesser of $25.00 or the required
minimum payment amount for the returned payment for any check (or other negotiable
instrument used for payment) which is returned unpaid; (b) $5.00 for each sales draft
copy You request; (c) a cash advance fee FINANCE CHARGE in an amount equal to
2.00% of the total amount advanced, subject to a minimum of $2.00 and a maximum of
$50.00; (d) a balance transfer fee FINANCE CHARGE in an amount equal to 2.00% of
the total amount transferred, subject to a minimum of $2.00 and a maximum of $50.00;
and (e) $20.00 for each Card that You request be delivered on an expedited basis.
DEFAULT. You will be in default if: (a) You do not make any payment or perform any
obligation under this Agreement, or any other agreement that You may have with Us; or
(b) You should die, become involved in any insolvency, receivership, or custodial
proceeding brought by or against You; or (c) You have made a false or misleading
statement in Your credit application and/or in Your representations to Us while You owe
money on Your Account; or (d) A judgment or tax lien should be filed against You or any
attachment, or garnishment should be issued against any of Your property or rights,
specifically including anyone starting an action or proceeding to seize any of Your funds
on deposit with Us and/or (e) We should, in good faith, believe Your ability to repay Your
indebtedness hereunder is or soon will be impaired, time being of the very essence.
If You are in default, We may, without notice or demand, and to the extent permitted by law,
cancel Your rights under this Agreement, declare the entire unpaid balance immediately
due and payable and require the return of all Cards and other Account Access devices.
COLLECTION COSTS. To the extent permitted by law, You will reimburse Us for
all of Our costs and expenses, including reasonable attorneys' fees incurred in the

Page 2 of 3

OTBS 016CC VP-INTRO FRB_WEB KEMB (1/17)
Rev. (6/16)

course of collecting any amounts owed under this Agreement or for the recovery of
any collateral.
CREDIT INSURANCE. Credit insurance is not required for any extension of credit
under this Agreement. However, You may purchase any credit insurance available
through Us and have the premiums added to the outstanding balance of Your
Account. If You elect to do so, You will be given the necessary disclosures and
documents separately. Any credit insurance premiums will be charged to Your
Account as a purchase.
ENFORCEMENT. We do not lose Our rights under this or any related agreement if
We delay enforcing them. We can accept late payments, partial payments, or any
other payments, even if they are marked "paid in full" without losing any of Our rights
under this Agreement. If any provision of this or any related agreement is determined
to be unenforceable or invalid, all other provisions remain in full force and effect.
UNAUTHORIZED USE. You may be liable for the unauthorized use of Your Account.
You will not be liable for the unauthorized use that occurs after You notify Us orally and
in writing at the address or telephone number shown in this Agreement, of the loss, theft,
or possible unauthorized use. In any case, Your liability will not exceed $50.00.
NOTIFICATION OF ADDRESS CHANGE. You will notify Us promptly in writing if You
move or otherwise have a change of address.
CHANGE IN TERMS. We may change the terms of this Agreement by mailing or
delivering to You written notice of the changes as prescribed by the Federal Truth-InLending Act. To the extent permitted by law, the right to change the terms of this
Agreement includes, but is not limited to, the right to change the periodic rate
applicable to Your unpaid balance and/or future advances.
REFUSAL TO HONOR CARDS OR CONVENIENCE CHECKS. We are not liable for
the refusal or inability of merchants, financial institutions, and others to accept the
Cards or Convenience Checks, or electronic terminals to honor the Cards or complete
a Card withdrawal, or for their retention of the Cards or Convenience Checks.

What To Do If You Find A Mistake On Your Statement
If You think there is an error on Your statement, write to Us at Our address shown in
this Agreement. In Your letter, give us the following information:
•
•
•

You must contact Us:
• Within 60 days after the error appeared on Your statement.
• At least 3 business days before an automated payment is scheduled, if You want
to stop payment on the amount You think is wrong.
You must notify Us of any potential errors in writing. You may call Us, but if You do
We are not required to investigate any potential errors and You may have to pay the
amount in question.
What Will Happen After We Receive Your Letter
When We receive Your letter, We must do two things:
1) Within 30 days of receiving Your letter, We must tell You that We received Your
letter. We will also tell You if We have already corrected the error.
2) Within 90 days of receiving Your letter, We must either correct the error or explain
to You why We believe the bill is correct.
While We investigate whether or not there has been an error:
•
•
•

LOST CARDS. To report lost or stolen Credit Cards, You will call Us immediately at
(800) 825-3622 or (513) 762-5070 or, You can write to Us at P. O. Box 14090,
Cincinnati, OH, 45250-0090.

Account information: Your name and Account number.
Dollar amount: The dollar amount of the suspected error.
Description of problem: If You think there is an error on Your bill, describe what
You believe is wrong and why You believe it is a mistake.

•

We cannot try to collect the amount in question, or report You as delinquent on
that amount.
The charge in question may remain on Your statement, and We may continue to
charge You interest on that amount.
While You do not have to pay the amount in question, You are responsible for the
remainder of Your balance.
We can apply any unpaid amount against Your Credit Limit.

After We finish Our investigation, one of two things will happen:
FOREIGN TRANSACTIONS. For transactions initiated in foreign currencies, the
exchange rate between the transaction currency and the billing currency (U.S. dollars)
will be: (a) a rate selected by VISA, from the range of rates available in wholesale
currency markets for the applicable central processing date, which rate may vary from
the rate VISA itself receives; or (b) the government-mandated rate in effect for the
applicable central processing date.

•
•

For all transactions, You will be charged 1.00% calculated on the final settlement amount.
EFFECT OF AGREEMENT. Even though the sales, cash advance, credit, or other
slips You may sign or receive when using the Card contain terms, this Agreement is
the contract which solely applies to all transactions involving Your Account.
CONSENT TO AGREEMENT. You acknowledge receipt of a copy of this Agreement.
By signing the Application and Your Credit Card, by using the Card, by using Your
Account, or by authorizing another to use Your Account, You agree to accept its terms.

If You receive Our explanation but still believe Your bill is wrong, You must write to Us
within 10 days telling Us that You still refuse to pay. If You do so, We cannot report
You as delinquent without also reporting that You are questioning Your bill. We must
tell You the name of anyone to whom we reported You as delinquent, and We must
let those organizations know when the matter has been settled between Us. If We do
not follow all of the rules above, You do not have to pay the first $50.00 of the amount
You question even if Your bill is correct.

INTEGRATED DOCUMENTS. Any separate sheet of paper labeled "Additional
Disclosure - Federal Truth-In-Lending Act" which is delivered to You and relates to
this Agreement is an integrated part of this Agreement and Disclosure.
UPDATING AND DISCLOSING FINANCIAL INFORMATION. You will provide facts to
update personal information or other financial information related to You, at Our request.
You also agree that We may, from time to time, as We deem necessary, make inquiries
pertaining to Your employment, credit standing, and financial responsibility in
accordance with applicable laws and regulations. You further agree that We may give
information about the status and payment history of Your Account to consumer credit
reporting agencies, a prospective employer or insurer, or a state or federal licensing
agency having any apparent legitimate business need for such information.
TERMINATION. Subject to applicable law, either You or We may cancel Your Account
at any time whether or not You are in default. You will, in any case, remain liable to
pay any unpaid balances according to the terms of this Agreement.
GOVERNING LAW. This Agreement is controlled and governed by the laws of the
State of Ohio except to the extent that such laws are inconsistent with controlling
federal law.
Your Billing Rights: Keep this Document for Future Use
This notice tells You about Your rights and Our responsibilities under the Fair Credit
Billing Act.
Copyright Oak Tree Business Systems, Inc., 2016 - 2017. All Rights Reserved.

If We made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
If We do not believe there was a mistake: You will have to pay the amount
in question, along with applicable interest and fees. We will send You
a statement of the amount You owe and the date payment is due. We
may then report You as delinquent if You do not pay the amount We think
You owe.

Your Rights If You Are Dissatisfied
With Your Credit Card Purchases
If You are dissatisfied with the goods or services that You have purchased with Your
Credit Card, and You have tried in good faith to correct the problem with the merchant,
You may have the right not to pay the remaining amount due on the purchase. To use
this right, all of the following must be true:
1) The purchase must have been made in Your home state or within 100 miles of
Your current mailing address, and the purchase price must have been more than
$50.00. (Note: Neither of these are necessary if Your purchase was based on an
advertisement We mailed to You, or if We own the company that sold You the
goods or services.)
2) You must have used Your Credit Card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses Your Credit Card
account do not qualify.
3) You must not yet have fully paid for the purchase.
If all of the criteria above are met and You are still dissatisfied with the purchase,
contact Us in writing at Our address shown in this Agreement.
While We investigate, the same rules apply to the disputed amount as discussed
above. After We finish Our investigation, We will tell You Our decision. At that
point, if We think You owe an amount and You do not pay, We may report You
as delinquent.

Page 3 of 3

OTBS 016CC VP-INTRO FRB_WEB KEMB (1/17)
Rev. (6/16)

KEMBA CREDIT UNION, INC.
P. O. BOX 14090
CINCINNATI, OH 45250
(800) 825-3622
FAX (513) 762-1619

Interest Rate and Interest Charges
Annual Percentage Rate
(APR) For Purchases

Annual Percentage Rate
(APR) For Balance Transfers

PRICING INFORMATION ADDENDUM –
CREDIT CARD AGREEMENT
AND DISCLOSURE STATEMENT
THIS IS YOUR ADDENDUM THAT CONTAINS PRICING INFORMATION FOR YOUR VISA
PLATINUM CREDIT CARD. PLEASE BE CERTAIN TO READ THIS ADDENDUM CAREFULLY AND
NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR.

0.00% Introductory APR for 12 months.
After that, Your APR will be 9.90%.
0.00% Introductory APR for 24 months.
After that, Your APR will be 9.90%.
0.00% Introductory APR for 12 months.
After that, Your APR will be 9.90%.
0.00% Introductory APR for 24 months.
After that, Your APR will be 9.90%.

Annual Percentage Rate
(APR) For Cash Advances

Paying Interest

For Credit Card Tips from the
Consumer Financial Protection
Bureau

0.00% Introductory APR for 12 months.
After that, Your APR will be 9.90%.
0.00% Introductory APR for 24 months.
After that, Your APR will be 9.90%.
We will not charge You interest on purchases if You pay Your entire balance owed each
month within 25 days of Your statement closing date. We will begin charging interest on
cash advances and balance transfers on the transaction date.
To learn more about factors to consider when applying for or using a Credit Card, visit
the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Transaction Fees




Foreign Transaction
Balance Transfer
Cash Advance

1.00% of each transaction in U.S. dollars.
2.00% of each transfer ($2.00 minimum - $50.00 maximum).
2.00% of each advance ($2.00 minimum - $50.00 maximum).

Penalty Fees



Returned Payment
Late Payment

Up to $25.00
Up to $25.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)." See Your
Account Agreement for details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in Your Account
Agreement.
FINANCE CHARGES. In the case of any transactions on Your Account, the balances subject to the periodic Finance Charge are the average daily transactions balances outstanding
during the month (including new transactions). To get the average daily balance, We take the beginning balance of Your Account each day, add any new purchases, balance
transfers, cash advances, insurance premiums, debit adjustments, or other charges and subtract any payments, credits, and unpaid Finance Charges or Late Charges. This gives
Us the daily balance. Then, We add up all the daily balances for the billing cycle and divide them by the number of days in the billing cycle. The Finance Charge for a billing cycle
is computed by multiplying the average daily balance subject to a Finance Charge by the Daily Periodic Rate times the number of days in the billing cycle.
You can avoid Finance Charges on purchases by paying the full amount of the entire balance owed each month within 25 days of Your statement closing date. Otherwise,
the new balance of purchases, and subsequent purchases from the date they are posted to Your Account, will be subject to a Finance Charge. Cash advances and balance
transfers are always subject to a Finance Charge from the date they are posted to Your Account.
For VISA Platinum Credit Card transactions that are subject to a 12-month discounted introductory rate, transactions for purchases, balance transfers, and cash advances
will accrue finance charges at a discounted introductory Daily Periodic Rate of 0.000000% (corresponding to an ANNUAL PERCENTAGE RATE of 0.00%) for the 12-month
period immediately following the date Your Account is established. Upon the expiration of the introductory rate period, the Daily Periodic Rate applicable to the entire balance
of purchases, balance transfers, and cash advances will immediately increase to 0.027123% (corresponding to an ANNUAL PERCENTAGE RATE of 9.90%).
For VISA Platinum Credit Card transactions that are subject to a 24-month discounted introductory rate, transactions for purchases, balance transfers, and cash advances
will accrue finance charges at a discounted introductory Daily Periodic Rate of 0.000000% (corresponding to an ANNUAL PERCENTAGE RATE of 0.00%) for the 24-month
period immediately following the date Your Account is established. Upon the expiration of the introductory rate period, the Daily Periodic Rate applicable to the entire balance
of purchases, balance transfers, and cash advances will immediately increase to 0.027123% (corresponding to an ANNUAL PERCENTAGE RATE of 9.90%).
Copyright Oak Tree Business Systems, Inc., 2016-2017. All Rights Reserved.

OTBS 016A CC VP-INTRO FRB_Web KEMB (1/17)
Rev. (1/17)

